IN THE SUPREME COURT OF THE UNITED STATES

ANDRE ANTHONY FRANKLIN, AKA. TOMMY MARTIN
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA. PAUPER'S

Pursuant to Title 18, United States Code, ยง 3006A and Rule 39 of this Court, Petitioner,
Andre Anthony Franklin, asks leave to file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and
to proceed in forma panperis.
Petitioner is represented by counsel appointed pursuant: to the Criminal Justice Act
of 1964, Title 18, United States Code, ยง 3006A. Petitioner was found to be indigent in the
district court and has had appointed counsel in the district court and before the Ninth
Circuit.
Respe ully s mitted,

Dated: August 31, 2021

AN'I. ONY E. COLOMBO, JR.
105 West F Street, Suite 309
San Diego, CA 92101
(619) 236-1704
Counsel for Petitioner
Andre Anthony Franklin, AKA Tommy Martin

